IN THE SUPREME COURT OF THE UNITED STATES

CERTIFICATE OF COMPLIANCE
Vignaraj Munsami Pillay - Pro se
Petitioner
V.
Public Storage Inc
Respondent
As required by Supreme Court Rule 33.1 (h), I certify that the Petition fro Writ of Certiorari contains
4.220 words excluding the parts of the Petition that are excluded by Supreme Court Rule 33.1 (d),
below the 9.000 word limit.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 05/12/2021
Vignaraj Munsami Pillay - Pro se
Petitioner

